NATIONAL OCEANIC
AND ATMOSPHERIC
ADMINISTRATION
Audit of the Joint Polar Satellite
System: Continuing Progress in
Establishing Capabilities,
Schedules, and Costs Is Needed
to Mitigate Data Gaps




FINAL REPORT NO. OIG-12-038-A
SEPTEMBER 27, 2012



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

For Public Release
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington, D.C. 20230




September 27, 20 12

MEMORANDUM FOR:               Dr. jane Lubchenco
                              Under Secretary of Commerce for Oceans and Atmosphere

FROM:                         Allen Crawley
                              Assistant Inspector
                                                                          c:
                              and IT Security

SUBJECT: 	                    Audit ofjoint Polar Satellite System: Continuing Progress in Establishing
                              Capabilities, Schedules, and Costs Is Needed to Mitigate Data Gaps
                              Final Report No. OIG-12-038-A

Attached is our final audit report on the continuing development of the Joint Polar Satellite
System OPSS). This audit continued our oversight of JPSS since its inception. Our objectives
were to (I) assess the adequacy of JPSS formulation activities-including the development of
requirements (capabilities), schedule, and cost baselines-and (2) monitor the program's efforts
to maintain continuity of polar satellite data.

To accomplish our objectives, we interviewed NOAA and NASA managers and staff within the
program, the NOAA Office of the Chief Financial Officer, the Center for Satellite Applications
and Research, and the National Centers for Environmental Prediction. We reviewed program
and budget documentation and attended multiple JPSS program management reviews.

We concluded that while progress has been made, the program's capabilities, schedule, and
cost baselines remain uncertain. NOAA has not articulated an acquisition strategy for the JPSS­
2 spacecraft, and JPSS-3 and JPSS-4 satellites (including instruments), for which contractual and
technical decisions must be made in the coming year. The program is revising ground system
requirements, which may result in more efficient processing of environmental data records.
Delay in formally establishing the program's governance structure and inadequate staffing may
have prolonged program formulation activities. And NOAA should assess proposed legislation's
potential impact to program capabilities, schedule, and cost.

NOAA does not have a policy that ensures consistent and reliable cost estimating for its major
system acquisitions. When examining NOAA's process for estimatingJPSS life-cycle costs, we
found that a clearly defined program and a more mature cost-estimating process are needed.
The program's revised cost estimate, derived to meet a life-cycle cost cap and artificially
flattened funding profile, is not consistent with typical space acquisitions. An independent cost
estimate is needed to assess whether the program is executable under these constraints.

For our second objective, we concluded that ground system work and other efforts to
operationalize Suomi NPP data have had mixed results thus far. Despite technical anomalies,
the program sufficiently validated a key data record so that it could be used for operational
weather forecasting within 7 months of Suomi NPP's launch, although other data records
cannot be used operationally until December 20 13. An ongoing dispute over the management
of calibration and validation of data records requires further attention. Finally, we have refined
our assessment of the expected data gap between Suomi NPP and JPSS-1.

In responding to the draft audit report, NOAA concurred with all of our recommendations.
We have summarized NOAA's response and made minor edits to the report, where
appropriate, based on NOAA's suggestions. The final report will appear on OIG's website
pursuant to section 8L of the Inspector General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of this memorandum. The plan should outline the actions
you propose to take to address each audit finding and recommendation.

We would like to extend our thanks to NOAA for the courtesies shown our staff during our
fieldwork. Please direct any inquiries regarding this report to me at (202) 482-1855 or Fred
Meny, Director, Satellites and Weather Systems, at (202) 482-1931.

Attachment

cc:    Dr. Kathryn D. Sullivan, Assistant Secretary for Environmental Observation
         and Prediction
       Dr. David Titley, Deputy Under Secretary for Operations
       Mary E. Kicza, Assistant Administrator for Satellite and Information Services
       Geovette E. Washington, Deputy General Counsel, Department of Commerce
       Mack Cato, Director, Office of Audit and Information Management
                                             Report In Brief                                   S E P T E MB E R 2 7 , 2 0 1 2




Background                                NATIONAL OCEANIC AND ATMOSPHERIC
NOAA, in partnership with NASA, is        ADMINISTRATION
acquiring and developing the next
generation of polar-orbiting satellites   Audit of the Joint Polar Satellite System: Continuing Progress in
for its Joint Polar Satellite System      Establishing Capabilities, Schedules, and Costs Is Needed to
(JPSS). JPSS components currently
envisioned for the system comprise        Mitigate Data Gaps
the Suomi National Polar-orbiting
                                          OIG-12-038-A
Partnership (Suomi NPP), JPSS-1,
JPSS-2, and two free flyer satellites.
NASA launched Suomi NPP on                WHAT WE FOUND
October 28, 2011. JPSS satellites will
                                          NOAA must clearly define JPSS capabilities, schedule, and cost. By defining the
provide data for weather prediction
and climate research. The free flyer      program and refining its cost-estimating process, NOAA can ensure that the
satellites will also collect and locate   estimate for JPSS is reliable; the program’s artificially flattened budget profile
environmental data, as well as detect     needs to be independently validated. Also, Suomi NPP data validation and ground
and relay signals from emergency          system improvements are needed for operational use. Finally, a 10–16-month gap
search and rescue beacons. Suomi          between Suomi NPP and JPSS-1 operational data is expected.
NPP is a research and risk-reduction
satellite; however, because of pro-       WHAT WE RECOMMEND
gram delays in launching JPSS-1,
NOAA must rely on Suomi NPP for           The Deputy Secretary for Operations should ensure that
key data used in weather forecasting.
We are predicting a 10–16-month           1. 	 Sufficient resources and attention are given to finalizing JPSS high-level
gap in weather forecasting data                requirements and completing system definition.
between the end of Suomi NPP’s
                                          2. 	 The program’s acquisition strategy for JPSS-3 and JPSS-4 is determined,
design life and the time when JPSS
data will be operational.                     documented, and shared with the Department, OMB, and Congress.
                                          3. 	 The National Environmental Satellite, Data, and Information Service
Why We Did This Review
                                              (NESDIS) and the JPSS program quantify cost savings while determining how
In our September 2011 report,                 to efficiently process environmental data records.
Challenges Must Be Met to Minimize
Gaps in Polar Environmental Satellite     4. 	 NESDIS determines whether an enterprise approach to developing and
Data, we addressed the need for               maintaining data products from its environmental satellites could achieve
JPSS baseline capabilities, costs, and        economies of scale.
schedule to be finalized, because
uncertain baselines translate to
                                          5. 	 Sufficient resources and attention are given to permanently filling key
uncertain budget requirements. In              management positions.
this audit, we further examined the       6. 	 A policy that requires major system acquisition programs to adhere to cost-
determination of program require-
                                               estimating best practices is developed.
ments and NOAA’s process for
estimating the program’s life-cycle       7. 	 Cost-estimating best practices are more closely adhered to in the JPSS
cost. Our objectives were to                   program and other major system acquisitions.
(1) assess the adequacy of JPSS
formulation activities and (2)            8. 	 An independent cost estimate adequately tests the viability of the program’s
monitor the program’s efforts to               funding profile.
maintain continuity of polar satellite
data.                                     9. 	 Stakeholders are sufficiently informed of unplanned schedule and capability
                                               trade-offs, if needed, to meet surges in effort necessary for launches.
U.S. DEPARTMENT OF COMMERCE                                                                                               OFFICE OF INSPECTOR GENERAL


Contents


Introduction .......................................................................................................................................................1


Findings and Recommendations ....................................................................................................................4


   I.		        NOAA Must Clearly Define JPSS Capabilities, Schedule, and Cost ........................................4


          A.		 JPSS requirements have been unstable since the restructure of NPOESS, changing the


               basis of program cost estimates ....................................................................................................5


          B.		 Changing requirements and acquisition strategies increase cost and schedule risk and 

               challenge program management ....................................................................................................6


          C.		 Requirement changes may also result in more efficient processing and distribution of 

               data.......................................................................................................................................................7


          D.		 Delayed governance structure, planning, and staffing may have prolonged program


               formulation.........................................................................................................................................8


          E.		 Proposed legislation that would restructure the program requires an assessment of


               capabilities, schedule, and cost impacts .......................................................................................9


   II.		       A Clearly Defined Program and a More Mature Process Are Needed to Ensure a


               Reliable JPSS Cost Estimate ..............................................................................................................9


          A.		 Clearly defining the program is the most significant challenge to developing a reliable 

               life-cycle cost estimate for JPSS.................................................................................................. 10


          B.		 Aspects of JPSS cost estimating require attention as the program formally baselines


               costs.................................................................................................................................................. 11


   III.		 NOAA Should Address Concerns with Revised Cost Estimate ........................................... 13


   IV.		 Suomi NPP Data Validation and Ground System Improvements Needed for Operational


         Use ...................................................................................................................................................... 14


          A.		 Degradation of Visible/Infrared Imager Radiometer Suite sensor delayed Suomi NPP


               commissioning ................................................................................................................................ 15


          B.		 Deferred ground system work, sensor data record discrepancies, and a planned 

               modernization of NCEP’s supercomputer system will result in unforeseen delay in


               operational use of Suomi NPP data ........................................................................................... 16


          C.		 Ground system risks realized early in life of Suomi NPP must be mitigated for


               operational use of data ................................................................................................................. 16


          D.		 Calibration and validation activities needed to operationalize data present management


               challenges......................................................................................................................................... 17


   V.		        Assessment of Expected Data Gap Between Suomi NPP and JPSS-1.................................. 18


   Recommendations..................................................................................................................................... 20


Summary of Agency Response and OIG Comments............................................................................. 21


Appendix A: Objectives, Scope, and Methodology................................................................................ 22


Appendix B: Agency Response ................................................................................................................... 24




FINAL REPORT NO. OIG-12-038-A
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


Introduction


NOAA, in partnership with NASA, is acquiring and developing the next generation of polar-
orbiting operational environmental satellites for its Joint Polar Satellite System (JPSS). The
satellites will cross the earth’s equator in the early afternoon, an important time for sampling
atmospheric conditions. 1 Formed in 2010 as a result of the restructuring of the National Polar-
orbiting Operational Environmental Satellite System (NPOESS), the JPSS program comprises
related projects that are intended to meet NOAA’s mission needs and fulfill agreements with
international partners. A Defense program intended to fulfill some NPOESS requirements, the
Defense Weather Satellite System (DWSS), has since been canceled.

Figure 1. Simplified Schematic Composition of the Joint Polar Satellite System




Note: NESDIS is NOAA’s National Environmental Satellite, Data, and Information Service.
Source: OIG adaptation of JPSS program schematic

Figure 1 is a simplified schematic of JPSS as currently envisioned. NOAA will command and
control the satellites from its mission management center, with communications transmitted
and data received via separate ground (antenna) stations. Once received on the ground, mission
data travel via a network infrastructure to the ground system’s data processing segment, which
produces weather and climate products from the data. JPSS satellites (JPSS-1 and JPSS-2) will
host instruments that provide environmental data used in weather prediction and climate
research. The JPSS ground system, started under the NPOESS program, currently supports a

1
 The early afternoon polar orbit covers the peak of midday heating and thus provides critical data for modeling
the physics of the atmosphere. Department of Defense and European satellites provide atmospheric data from the
mid-morning. Defense satellites provide data from the early morning. Together, these satellites provide data for
NOAA forecast models that are generally refreshed at 6-hour intervals over the entire globe.


FINAL REPORT NO. OIG-12-038-A                                                                                  1
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

risk-reduction satellite—Suomi National Polar-orbiting Partnership (discussed below)—by
providing command, control, and communications and science data processing. The ground
system will be upgraded to support the JPSS satellites. Data from satellites owned and operated
by other agencies and international partners will also be processed and distributed. Additional
plans call for “free flyer” satellites to host a climate sensor and instruments that collect and
locate in situ environmental data, as well as detect and relay signals from emergency search and
rescue beacons.

JPSS development follows NASA program management standards and practices. 2 The program
is formally in the first major phase of the NASA program life cycle, formulation, the goal of
which is to establish a cost-effective program that is demonstrably capable of meeting agency
and mission goals and objectives. After successfully meeting formulation criteria, the program
gains approval to proceed to the implementation phase, to execute the program and constituent
projects while ensuring the program continues to contribute to agency goals and objectives
within funding constraints. Practically speaking, however, JPSS is currently in both formulation
and implementation phases, given that the program is a restructuring of NPOESS and its ground
system is already built and operating the recently launched Suomi NPP satellite, and processing
data. In addition, development of instruments for the first JPSS satellite, JPSS-1, is well under
way.

In our September 2011 report, Audit of the Joint Polar Satellite System: Challenges Must Be Met to
Minimize Gaps in Polar Environmental Satellite Data, 3 we addressed the need for JPSS baseline
capabilities, costs, and schedule to be finalized, noting that uncertain baselines translated to
uncertain budget requirements. This was particularly problematic given the fiscal environment
and Congress’s need for clear definitions of programs as it makes funding decisions. In this
audit, we further examined the determination of program requirements and NOAA’s process
for estimating the program’s life-cycle cost.

Our report also examined preparations for the launch of the NPOESS Preparatory Project
satellite, now known as Suomi National Polar-orbiting Partnership (Suomi NPP), 4 a research
and risk-reduction satellite intended to continue NASA’s Earth Observing System (EOS)
measurements and demonstrate the next generation of polar-orbiting operational
environmental sensors (which will fly on JPSS satellites). 5 Due to NPOESS program delays and
the aging of NOAA’s current constellation of polar-orbiting operational environmental satellites
(and NASA’s EOS), however, NOAA must rely on Suomi NPP for key data used in operational
weather forecasting. NASA successfully launched Suomi NPP on October 28, 2011. After
commissioning the satellite and its instruments, NASA transferred operation of the satellite to

2
  NASA, March 2007. Space Flight Program and Project Management Requirements, NPR 7120.5D (including NASA 

Interim Directive 7120-97). Washington, D.C.: NASA.


3
  U.S. Department of Commerce Office of Inspector General, September 2011. Audit of the Joint Polar Satellite 

System: Challenges Must Be Met to Minimize Gaps in Polar Environmental Satellite Data, OIG-11-034-A.


Washington, D.C.: Department of Commerce OIG.


4
  On January 25, 2012, NASA renamed the satellite in honor of the late Verner E. Suomi, a pioneer in satellite


meteorology.


5
  Research satellites demonstrate new technologies that, if successful, can be used in operational satellites. JPSS 

operational satellites are designed for a longer mission life and will be built to more robust engineering standards


than Suomi NPP’s research mission.




FINAL REPORT NO. OIG-12-038-A                                                                                        2
U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL

the JPSS program, which must complete calibration and validation 6 of Suomi NPP data records
and add robustness to its ground system. The program is also incorporating lessons learned
from Suomi NPP’s development as it develops its operational-grade satellites, JPSS-1 and JPSS-2,
which will host nearly the same suite of instruments as Suomi NPP and are currently slated for
launches in 2017 and 2022, respectively.

This audit continued our oversight of JPSS since its inception. 7 Our objectives were to (1)
assess the adequacy of JPSS formulation activities, including the development of requirements
(capabilities), schedule, and cost baselines, and (2) monitor the program’s efforts to maintain
continuity of polar satellite data.

We concluded that while progress has been made, the program’s capabilities, schedule, and
cost baselines remain uncertain. NOAA has not articulated an acquisition strategy for the JPSS-
2 spacecraft, and JPSS-3 and JPSS-4 satellites (including instruments), for which contractual and
technical decisions must be made in the coming year. The program is revising ground system
requirements and this may result in more efficient processing of environmental data records.
Delay in formally establishing the program’s governance structure and inadequate staffing may
have prolonged program formulation activities. And NOAA should assess proposed legislation’s
potential impact to program capabilities, schedule, and cost.

NOAA does not have a policy that ensures consistent and reliable cost estimating for its major
system acquisitions. When examining NOAA’s process for estimating JPSS life-cycle costs, we
found that a clearly defined program and a more mature cost-estimating process are needed.
The program’s revised cost estimate, derived to meet a life-cycle cost cap and artificially
flattened funding profile, is not consistent with typical space acquisitions. An independent cost
estimate is needed to assess whether the program is executable under these constraints.

For our second objective, we concluded that ground system work and other efforts to
operationalize Suomi NPP data have had mixed results thus far. Despite technical anomalies,
the program sufficiently validated a key data record so that it could be used for operational
weather forecasting within 7 months of Suomi NPP’s launch, although other data records
cannot be used operationally until December 2013. An ongoing dispute over the management
of calibration and validation of data records requires further attention. Finally, we have refined
our assessment of the expected data gap between Suomi NPP and JPSS-1. We reiterate our
prior recommendations relevant to these issues.




6
  Calibration is the quantification of a sensor’s performance in relation to a traceable standard. Validation is the


assessment of data product quality using independent data sources of known quality.


7
  See also our interim report of the September 2011 audit: Memorandum to the Under Secretary for Oceans and 

Atmosphere, June 10, 2011 (OIG-11-029-M).




FINAL REPORT NO. OIG-12-038-A                                                                                            3
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
    I.      NOAA Must Clearly Define JPSS Capabilities, Schedule, and Cost

         In September 2011, after a lengthy process, 8 NOAA’s Deputy Under Secretary for
         Operations formally approved preliminary high-level requirements for JPSS (its full-scope
         program) and a cost estimate was subsequently validated. However, during a February 2012
         submission to the President’s Budget for Fiscal Year 2013, the Department and NOAA
         informed Congress of potential changes to those requirements—including removing
         environmental sensors and reducing the timeliness of satellite data—in order to reduce the
         program’s life-cycle cost. NOAA officials told us that during the budget formulation process
         the decision was made, with both the Department and Office of Management and Budget
         (OMB), to cap the program’s life-cycle cost at $12.9 billion and even out the program’s
         year-over-year funding profile, to bring stability to JPSS budget requests.

         The proposed $12.9 billion life-cycle cost cap was not derived from a rigorous cost
         estimate at the time it was submitted for the FY 2013 President’s Budget. Rather, the
         program had spent much of 2011 developing a cost estimate for its full-scope program,
         totaling $14.7 billion. An independent cost estimate, using somewhat different assumptions,
         concluded that program costs would total $16.1 billion. NOAA subsequently revised its
         cost estimate to determine the optimal capabilities and schedule that could be delivered
         under the $12.9 billion cap.

         The JPSS program completed its system requirements review, to evaluate whether its
         requirements were properly formulated and the program’s estimated cost and schedule
         were credible, in late May 2012. As part of the review, the program presented the $12.9
         billion revised estimate to the program’s standing review board, 9 along with its
         determination of the optimal capabilities and schedule that it could deliver under the cost
         cap. (According to the program, the estimate supports most of the capabilities NOAA
         intended for the program, although data latency—the time period from satellite observation
         until data is delivered to users—will not be as short as initially planned and there was an
         additional 3-month delay in the scheduled launch date of JPSS-1.) A successfully completed
         system requirements review was a prerequisite to Key Decision Point 0 (July 20, 2012),
         from which the Under Secretary for Oceans and Atmosphere determined that the program
         should proceed with system definition activities. After a system definition review, the
         program reaches Key Decision Point 1 (scheduled for July 2013), when it is expected to
         have completed formulation activities and developed an acceptable plan (projects are
         feasible and risks acceptable) for implementation. From this point, the program commits to
         being measured against its approved capabilities, schedule, and cost baselines.


8
  See OIG-11-034-A for a discussion of requirements delay under finding II, part C: “JPSS Program’s Baseline


Capabilities, Costs, and Schedule Need to Be Finalized.”


9
  The standing review board is responsible for conducting independent reviews (life cycle and special) of a


program/project and providing objective, expert judgments to the convening authorities.




FINAL REPORT NO. OIG-12-038-A                                                                                    4
U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL

     A.		 JPSS requirements have been unstable since the restructure of NPOESS, changing the basis of
          program cost estimates

     While unstable requirements can be typical of programs in the formulation phase, in prior
     reporting we have noted that decisions on capabilities, schedule, and costs were needed. 10
     NOAA’s burden of what were previously NPOESS requirements has increased due to the
     cancellation of DWSS. Also, according to program staff, some of the NPOESS requirements
     have become outdated, and a reassessment of those requirements in light of current
     needs—as well as fiscal constraints—is necessary. The JPSS program will not formally
     commit to a program baseline until after Key Decision Point 1, currently planned for July
     2013, nearly 3.5 years after the White House decision to restructure NPOESS.

     Before and after leadership approved the program’s preliminary high-level requirements in
     September 2011, funding and other considerations repeatedly spurred NOAA to adjust
     what the JPSS program would actually provide to its users. These changes in capabilities
     have had ramifications for the life-cycle cost estimates reported by the program.

     Table 1: JPSS Cost Estimates and Major Assumptions
                                     2009 Initial Estimate                                      2012 Estimate
                                                                    2011 Estimateb
                                      (for FY 2011 PBa)                                       (for FY 2013 PB)
         Cost (in billions)                   $11.9                   $14.7–$16.1                    $12.9

         Life cycle (from FY2009
                                               2024                       2028                        2028
         and prior)
                                                                      Suomi NPP,c                 Suomi NPP,c
                                           Suomi NPP,c
         Satellites                                                  JPSS-1, JPSS-2 ,            JPSS-1, JPSS-2,
                                          JPSS-1, JPSS-2
                                                                   and five free flyers        and two free flyers

         JPSS satellite launch           JPSS-1: FY 2015          JPSS-1: Q1d FY 2017         JPSS-1: Q2e FY 2017
         readiness dates                 JPSS-2: FY 2018          JPSS-2: Q2 FY 2021f          JPSS-2: Q1 FY2022e
     a
      President’s Budget. bCost figures for 2011 represent the program office and independent cost estimates, 

     respectively. cJPSS costs include some development and all operational costs for Suomi NPP. dFirst quarter.


     e
       Second quarter. fWhile JPSS-2 is planned to be launch-ready by Q1 FY 2022, its actual launch date is to be 

     determined.


     Source: OIG analysis of data from JPSS program.



     As an example, NOAA’s initial cost estimate, submitted for the FY 2011 President’s Budget,
     was $11.9 billion. NOAA indicated that this estimate had an eighty percent confidence level
     (an assessment of risk and uncertainty), which an independent review team had
     recommended for its predecessor program to be adequately funded. This initial cost
     estimate included five Visible/Infrared Imager Radiometer Suite (VIIRS) sensors, no




10
  Commerce OIG, Audit of the Joint Polar Satellite System and interim report. See also U.S. Government
Accounting Office, May 2010. Polar-Orbiting Environmental Satellites: Agencies Must Act Quickly to Address Risks
That Jeopardize the Continuity of Weather and Climate Data, GAO-10-558. Washington, D.C.: GAO.


FINAL REPORT NO. OIG-12-038-A                                                                                         5
U.S. DEPARTMENT OF COMMERCE                                                           OFFICE OF INSPECTOR GENERAL

     accommodation for a key climate sensor and other instruments, 11 and a life cycle through
     FY 2024. Subsequent cost estimates have included three VIIRS sensors (for Suomi NPP,
     JPSS-1, and JPSS-2), and the life cycle has been extended 4 years to FY 2028. The program
     has added requirements to launch a climate and other sensors on smaller, free flyer
     satellites. In addition, climate sensors originally funded outside of the program (although
     within NOAA’s overall budget) have been added to the JPSS budget. Table 1 contains the
     history of JPSS cost estimates developed thus far and their major assumptions of program
     content and schedules.

     NOAA is currently reviewing and prioritizing requirements to complete program
     formulation; final decisions on changes to requirements are targeted for November 2012. In
     the absence of finalized requirements, NOAA has been providing NASA direction letters
     for anticipated system requirements and design decisions. Still, NASA has reported that late
     development of the requirements baseline is an issue that could impact launch readiness
     dates for both JPSS-1 and the free flyer satellites.

     B.		 Changing requirements and acquisition strategies increase cost and schedule risk and challenge
          program management

     The JPSS program has reported the changing requirements baseline as a program risk that
     could delay the readiness of the JPSS ground system and the JPSS-1 launch date. NASA’s
     JPSS acquisition program also has warned of launch delays for both JPSS-1 and the free flyers
     and has indicated difficulty with making informed decisions. Before the FY 2013 President’s
     Budget and the program’s system requirements review had been completed, contracts were
     not reflective of the program’s planned capabilities, schedule, and funding profiles. A lack of
     technical (capabilities), schedule, and cost baselines leaves managers without adequate
     means to assess contractor and overall program performance.

     Ground system requirements. Although JPSS completed its program-level system requirements
     review in May, a project-level review of its ground segment requirements, originally
     scheduled in advance of the program-level review, was delayed until late August. The
     program has been studying options for revising its ground system architecture, which was
     originally conceived under NPOESS and, because of custom interfaces and tightly coupled
     hardware and software, 12 makes interoperability and interfacing with partner institutions
     more difficult. The program’s goal is to move toward a more open, adaptable, standardized
     architecture that will allow the program to save costs by interfacing with international and
     other partners for mission data. One such example of this approach, already under way, is
     the program’s efforts to use data from a Japanese satellite, GCOM-W, 13 which launched
     May 18, 2012. In addition, requirements for the ground system’s support for Defense
     partners have changed as a result of Defense’s own fiscal constraints and the cancellation of
     DWSS.

11
   The Total Solar Irradiance Sensor (TSIS) will measure the variability in the sun's total output. It will continue


measurements of NASA’s Solar Radiation and Climate Experiment research mission. The other instruments are 

Search and Rescue Satellite-Aided Tracking (SARSAT), and Argos Data Collection System (ADCS).


12
   Tightly coupled hardware and software components are linked together and dependent on each other.


13                                       st
   Global Change Observation Mission 1 –Water.




FINAL REPORT NO. OIG-12-038-A                                                                                            6
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

     Free flyer requirements. Further, design decisions for the free flyer project are pending.
     Program staff members are deciding how best to meet the requirements for the different
     instruments for which the free flyer project is responsible. 14 One such decision pertains to
     the ground system(s) that the instruments will require to meet their security needs. The
     free flyers are currently budgeted to have a ground system provided by an institutional
     partner. But higher security requirements could instead require services from the JPSS
     ground segment, likely at greater cost.

     Acquisition strategy for JPSS-2. The program plans to decide whether to competitively award a
     contract for the JPSS-2 spacecraft by December, according to status reports. (The program
     has chosen to sole-source contracts for JPSS-2 instruments.)

     Acquisition strategy beyond JPSS-2. Finally, life-cycle cost and documented program plans are
     limited to JPSS-1 and JPSS-2. Although decisions need to be made soon to support the
     procurement and development of JPSS-3 and JPSS-4, NOAA has not included either satellite
     in its FY 2012 or FY 2013 budget justification. NOAA should ensure that stakeholders are
     aware of any impact that the development and acquisition of these satellites will have on the
     JPSS program.

     C. Requirement changes may also result in more efficient processing and distribution of data

     NOAA’s JPSS program is looking for ways to more efficiently deliver its required
     capabilities. As currently defined, JPSS high-level requirements call for the ground system to
     convert raw data records (RDRs) first into sensor data records (SDRs) and then into
     environmental data records (EDRs), by applying algorithms (in the form of software code).

     The additional processing for EDRs (outlined in bold in figure 2) may be more efficiently
     performed in a downstream NOAA system, separate from JPSS, known as NPOESS Data
     Exploitation (NDE–dashed outline in figure). Because of legacy NPOESS specifications and
     design decisions, the JPSS data processing segment, built for Suomi NPP, does not produce
     EDRs in a format compatible with National Weather Service (NWS) systems. The NDE
     system reformats JPSS data records for NOAA users. NDE also creates NOAA-unique
     products from the data, in some cases combining data from other sources. In addition, NDE
     separately produces some EDRs from JPSS sensor data. JPSS program leaders are examining
     whether NDE can process EDRs more efficiently and therefore provide an opportunity to
     reduce the complexity and cost of the JPSS ground system.

     Unfortunately, program leadership has not yet been able to quantify the potential cost
     savings. It is expected that the program would fund the NDE program for the additional
     processing, although it does not fund NDE for current processing. We believe more could
     be done to determine cost savings.

     Additionally, we believe NOAA should determine whether an enterprise approach to
     developing and maintaining data products from its environmental satellites could achieve

14
  The three instruments planned for free flyers are the Total Solar Irradiance Sensor (TSIS), Search and Rescue
Satellite-Aided Tracking (SARSAT), and Argos Data Collection System (ADCS).


FINAL REPORT NO. OIG-12-038-A                                                                                     7
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

    economies of scale and complement other efforts to modernize National Environmental
    Satellite, Data, and Information Service (NESDIS) system architecture. Users would likely
    benefit from data product standardization and new products.

    Figure 2. Processing Flow of JPSS Satellite Data Records


                         Satellite
      Space
                      Observations




      Ground                            JPSS                                 External Systems



                     Decode Satellite          RDRs
                          Data
                                                                                    Archive
                                                (Uncalibrated sensor data)

                                                                                                        Users
                        Convert                SDRs
                     RDRs to SDRs                                                     NDE
                                                (Calibrated sensor data)
                                                                             • Tailor Records for
                                                                               NWS Users
                                                                             • Create Unique Products
                        Convert                                              • Convert SDR to EDR
                                               EDRs
                     SDRs to EDRs
                                                (Geophysical parameters)


    Source: OIG adapted from program documentation.

    D. Delayed governance structure, planning, and staffing may have prolonged program formulation

    NOAA and NASA leadership approved the JPSS Management Control Plan—which
    documents their agreement on the roles and responsibilities, the governance structure, and
    program authorities for JPSS—in early February 2012, or 2 years into the life of the
    program. Preliminary NOAA and NASA program plans were produced in time for the
    program’s May 2012 system requirements review. At that review, the program’s standing
    review board commented on what seemed a complex governance structure but ultimately
    concluded that it was working.

    The program has had key staff in acting, rather than permanent, capacities for extended
    periods of time. A permanent NOAA JPSS director began work in September 2011.
    NOAA’s Deputy Under Secretary for Operations—who is deemed the final authority for
    the program’s high-level requirements, schedule, and budget submissions—retired in
    January 2012 and was not permanently replaced until July. This interim period included the
    FY 2013 President’s Budget submission and other decisions on high-level requirements. In


FINAL REPORT NO. OIG-12-038-A                                                                                   8
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

        June 2012, the acting NESDIS Deputy Assistant Administrator for Systems, serving on a
        detail from NASA since May 2011, left NOAA to return to NASA. Now vacant, this
        position serves as the single NOAA source of strategic direction and programmatic
        guidance to NASA, according to the agencies’ management control plan for the program.
        Several other key positions within NESDIS and the program are filled by detailed employees
        in acting rather than permanent capacities. NOAA has attributed the delays in establishing
        JPSS’ governance and permanently staffing key positions, in part, to funding shortages in FYs
        2010 and 2011.

        E.		 Proposed legislation that would restructure the program requires an assessment of capabilities,
             schedule, and cost impacts

        The Senate Appropriations Committee bill for FY 2013 15 includes a provision that would
        transfer funding and responsibility for procurement of NOAA’s operational satellites to
        NASA, instituting a new management structure for JPSS. However, OMB has not yet issued
        an official Statement of Administration Policy to Congress on the matter. NOAA will need
        to complete an assessment of its potential impact to the program’s capabilities, schedule,
        and cost, should this provision become law.

     II.		   A Clearly Defined Program and a More Mature Process Are Needed to
             Ensure a Reliable JPSS Cost Estimate

        NOAA does not have a policy to effect consistent and reliable cost estimates for its major
        system acquisition programs. NOAA officials told us that in 2011 the agency followed the
        same practices developing the JPSS cost estimate that it had used for the Geostationary
        Operational Environmental Satellite-R Series program (another major system acquisition),
        although the officials had not documented and could not clearly articulate the overall
        methodology. We conducted a best practice 16 assessment of NOAA’s activities undertaken
        in 2011 to develop a JPSS life-cycle cost estimate. During our fieldwork, in early 2012, the
        program was in the process of revising its estimate to conform to the $12.9 billion life-cycle
        cost cap. Because that activity was ongoing and involved pre-decisional information, we did
        not review it as part of this audit. However, our findings related to the program’s 2011
        cost-estimating activities should provide guidance for improving the reliability of the JPSS
        life-cycle cost estimate as it is updated for Key Decision Point I.

        Figure 3 depicts the steps in a best practice cost-estimating process and our evaluation of
        NOAA’s process for JPSS, with the most significant challenge outlined in bold and other
        areas that require attention indicated with dashed outlines.




15                                                                                        th
   Commerce, Justice, Science, and Related Agencies Appropriations Act, 2013, S. 2323, 112 Cong. (2012); see also


Senate Report 112-158 (discussing Committee rationale for transfer to NASA).


16
   U.S. Government Accountability Office, March 2009. GAO Cost Estimating and Assessment Guide: Best Practices


for Developing and Managing Capital Program Costs, GAO-09-3SP. Washington, D.C.: GAO.




FINAL REPORT NO. OIG-12-038-A                                                                                    9
U.S. DEPARTMENT OF COMMERCE                                                                        OFFICE OF INSPECTOR GENERAL

    Figure 3. Evaluation of NOAA’s Cost Estimating Process for JPSS

     Initiation and Research                 Assessment                         Analysis                           Presentation

        Define the estimate's                                                                                Present to management for
                                          Define the program            Conduct sensitivity analysis
              purpose                                                                                                 approval


                                       Determine the estimating              Conduct risk and                  Update the estimate to
     Develop the estimating plan
                                             structure                      uncertainty analysis             reflect actual costs/changes


                                        Identify ground rules and
                                                                          Document the estimate
                                               assumptions


                                            Obtain the data


                                      Develop point estimate and
                                      compare to an independent
                                            cost estimate


                  Key:          Generally consistent with           Requires attention                 Significant challenge
                                     best practice


    Source: OIG analysis of NOAA cost-estimating activities against GAO-defined best practices.

    A.		 Clearly defining the program is the most significant challenge to developing a reliable life-cycle
         cost estimate for JPSS

    Define the program. As described in finding I, the program content and scope of the
    estimates NOAA has reported have varied greatly. While defining the program is one goal
    of the formulation phase of a program life cycle, some JPSS component projects are actually
    at more mature phases than the overall program. All of the instruments for JPSS-1, for
    example, are more than 60 percent built, and nearly all NPOESS contracts have been
    transitioned to NASA and definitized, indicating agreement on the work to be performed
    and the cost. This provides cost analysts with data from which to construct elements of the
    estimate. But due to the potential for requirements or system design changes (particularly
    for the ground and free flyer segments), uncertainty in some of those costs remains.

    Clear requirements are needed to adequately define the program in a Cost Analysis
    Requirements Description (CARD). This document serves as the technical baseline of the
    program and can include the acquisition strategy, technical definition, characteristics, system
    design features, and technologies. The more completely defined a program is, the fewer
    assumptions cost analysts must make, leading to a more reliable cost estimate. In 2011, the
    JPSS CARD was constructed in what program officials described as a compressed time
    frame, beginning in March and concluding in June. As we reported in September 2011, the
    CARD was completed without an approved set of high-level requirements.




FINAL REPORT NO. OIG-12-038-A                                                                                                               10
U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL

     B. Aspects of JPSS cost estimating require attention as the program formally baselines costs

     The following aspects of cost estimating require management attention to ensure the
     program has a reliable cost estimate in time for its next programmatic milestone: Key
     Decision Point 1, in July 2013.

     Develop the estimating plan. The JPSS program office estimate developed in 2011 was done
     without a written cost-estimating plan. Both program officials and the cost-estimating
     contractor described an ad hoc approach in which certain activities were rushed and
     documentation was lacking. Instead of providing specific cost-estimating activities and a
     schedule, a draft copy of an estimating plan completed in February 2012 comprised a
     general list of methodologies, standards, and guidelines.

     Determine the estimating structure. One such standard—also a best practice—requires the
     use of a product-oriented work breakdown structure in estimating the cost of program
     elements. 17 Establishing a product-oriented cost structure allows a program to track cost
     and schedule by defining deliverables, such as hardware or software components. The
     program can then more effectively identify elements that are causing a cost or schedule
     variance and thereby more efficiently mitigate the cause of the variance. While the program
     provided dictionaries of both product-oriented and functional work breakdown structures,
     its cost estimate was aligned with the functional structure.

     Further, the JPSS cost estimate structure was not sufficiently detailed and did not always
     match the defined functional work breakdown structure. Best practice and the program’s
     standard call for at least three levels of cost elements and four to five levels for certain high-
     risk cost elements. Yet, the program office estimate included just one line item, based on
     contract values, for JPSS sensors, whose development accounted for significant cost
     overruns under NPOESS. The estimate did not break out costs for design, development,
     fabrication, assembly and test of the instruments. Neither did the estimate conform to the
     program’s defined functional work breakdown structure, which includes two elements for
     its instrument costs: one for each instrument contract and a second element for
     management and support related to each instrument. The program office estimate,
     however, did not include the instrument-specific management and support cost element.
     Instead, those costs were aggregated under “labor” elements for all instruments. As such,
     the 2011 estimate obscured costs of some of the program’s defined functional cost
     elements.

     Identify ground rules and assumptions. The basis of estimates should be clearly documented. In
     general, we found that a clear accounting of all ground rules, assumptions, and drivers
     forming the basis of JPSS estimates was lacking. While a set of ground rules and assumptions
     was documented in the program’s CARD, the actual ground rules and assumptions that
     formed the basis of the program office and independent cost estimates differed. For
     example, the CARD projected a life cycle to FY 2024, while the program office and
     independent cost estimates projected a life cycle to FY 2028. And while both the CARD

17
  U.S. Department of Defense, October 2011. Work Breakdown Structures for Defense Materiel Items, MIL STD-
881C. Arlington, VA: DoD.


FINAL REPORT NO. OIG-12-038-A                                                                                11
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

     and the independent cost estimate assumed that contracts for JPSS-2 instruments and
     spacecraft would be competitively awarded, the assumption for the program office estimate
     was that instrument contracts would be sole-sourced. This difference was recognized in the
     reconciliation of the two estimates, but generally the basis of these estimates should be the
     same, to provide a more valid comparison.

     Further, NASA’s cost estimate for its acquisition program, which was the source of much of
     the program office estimate’s data, was based on significantly different assumptions about
     the scope of the program, including the number of JPSS satellites. NASA assumed four
     instead of two (i.e., JPSS-1, JPSS-2, JPSS-3, and JPSS-4). This was presumably because NASA’s
     estimate was initiated before the JPSS CARD was complete but may also indicate
     miscommunication between the agencies. 18 As a result of the different assumptions,
     NOAA’s cost analysts had to adjust certain cost elements and remove costs for the two
     additional satellites assumed by NASA. Still, at least one cost element in NOAA’s estimate,
     for program management, was not detailed with the lower level cost elements, obscuring
     the adjustments made by the cost analysts.

     Obtain the data. In some cases, the NOAA and independent cost analysts had difficulty
     collecting quality historical and other data that could be used for developing the estimates.
     The independent cost-estimating team was critical of the CARD’s lack of technical details
     for the ground system and told us that it struggled to obtain more specifics from the
     program and its ground system contractor. JPSS’ life-cycle cost includes sunk costs 19 from
     work completed under the NPOESS program in FY 2010 and prior; NOAA had not
     completed an accounting effort of the sunk costs before it finished the program office
     estimate. NOAA’s cost analysts did not have underlying details from NASA’s cost estimate
     that served as major input to the program office estimate. Further, the cost analysts told us
     that they were not included in NASA meetings and learned of design changes from monthly
     program status review materials. This was echoed by a NASA program official, who
     separately told us that NOAA’s cost analysts did not attend NASA’s technical meetings and
     likely did not have adequate knowledge of design decisions.

     Conduct sensitivity analysis. A sensitivity analysis consists of identifying key cost drivers and
     varying individual parameters to determine which are most sensitive to change. The results
     should include a range of possible costs and a method for performing “what-if” analysis for
     system design decisions. As such, sensitivity analysis is valuable for making informed
     decisions as to the best options for delivering planned capabilities. Sensitivity analyses
     should be well-documented and presented to management for decisions. Yet, the JPSS
     program office estimate developed in 2011 did not include documentation of this best
     practice.

     Document the estimate. A reliable cost estimate is comprehensive and accurate and can be
     easily and clearly traced, replicated, and updated. It should include data sources, the process

18
   In fact, NASA is currently reporting that major contractual and technical decisions pertaining to JPSS-2, JPSS-3,


and JPSS-4 must be made in 2012 to support procurement activities starting in 2013. Thus far, the Department and 

NOAA are constraining the scope of JPSS cost estimates to just the first two satellites.


19
   Sunk costs are costs that have already been incurred and cannot be recovered.




FINAL REPORT NO. OIG-12-038-A                                                                                      12
U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL

        followed, and methods used. Aside from the CARD and a management brief, the JPSS
        program office estimate was supported by limited documentation. The estimate itself
        consisted of a single electronic spreadsheet. Comment fields in the spreadsheet sometimes
        referred to the data source for a given cost element, which in nearly all cases was a NASA
        brief of its own cost estimate for the program. As a whole, documentation for the program
        office estimate did not adequately identify or include data sources, assumptions, methods,
        and decisions basic to the estimate. When we discussed it with them, NOAA’s cost analysts
        acknowledged that the estimate was not documented to an extent consistent with best
        practice.

 III.      NOAA Should Address Concerns with Revised Cost Estimate

        The revised program office estimate, supporting a $12.9 billion life-cycle cost, was briefed
        to OMB in early June. The revised estimate indicated that, contrary to proposals made in
        the FY 2013 President’s Budget submission, much of the original program content included
        in its preliminary high-level requirements document could be retained under the cost cap.
        While the revised estimate was not available for review during our fieldwork, NOAA’s JPSS
        Director and Deputy Director gave us an overview of the estimate (with the same
        presentation used to brief OMB) in early August. In advance of Key Decision Point 1, the
        program should address the following concerns about its reliability:

        •		 Despite OMB’s approval of the program’s revised capabilities and schedule, there
            remains a high degree of uncertainty in design requirements of the free flyer project,
            which has the potential to cost significantly more than what is currently budgeted (see
            our discussion of free flyer requirements in finding I). The program is also formulating
            significant design changes for the ground system. And the program is currently revising
            the CARD, which provides the technical baseline needed to properly derive an estimate.

        •		 An independent cost estimate has not validated the revised estimate.

        •		 Intended to bring stability to the appropriation, the revised estimate includes an
            artificially flattened budget profile for FY 2013–FY 2017 at $900 million per year, plus
            the cost of climate sensors previously budgeted in a different NOAA program. As
            depicted in figure 4 and acknowledged by program managers, however, space
            acquisitions typically exhibit peaked funding profiles. In the figure, the 2011 program
            office and independent cost estimate curves demonstrate the surge in resources
            necessary to ensure completion of development, integration, and testing of sensors,
            spacecraft, and launch vehicles; this is much less evident in the revised estimate for the
            FY 2013 President’s Budget.




FINAL REPORT NO. OIG-12-038-A                                                                            13
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

         Figure 4. Budget Profiles (FY 2012–FY 2017) of JPSS Cost Estimates
          (in millions of FY 2010 dollars)




         Source: OIG presentation of program data

         An artificially flattened profile restricts access to needed resources, without which the
         program’s ability to deliver promised capabilities and meet schedules is at risk. As such,
         there is an increased likelihood that the program will need to delay the delivery of
         capabilities postlaunch in order to sufficiently fund the most critical work preparing for
         launch. We have concerns as to whether stakeholders (in particular, users of JPSS data)
         will be adequately informed and prepared for such decisions, should they occur (see, for
         example, finding IV, part B, below).

 IV.		   Suomi NPP Data Validation and Ground System Improvements Needed for
         Operational Use

     As we reported in September 2011, some of Suomi NPP’s key instruments encountered
     technical issues as they were built, and they were launched with significant residual risks.
     Since the October 28, 2011, launch, there have been on-orbit anomalies with Suomi NPP’s
     sensors, including one that prolonged the satellite’s checkout phase by 6 weeks. Issues with
     certain data records and additional constraints from a planned upgrade of supercomputers
     used in numerical weather prediction 20 will delay the operational use of those data records
     until December 2013.



20
  Numerical weather prediction models use millions of weather data (for example, temperature, pressure, wind)
to represent current conditions and make predictions of future states of the atmosphere.


FINAL REPORT NO. OIG-12-038-A                                                                                   14
U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL

       The JPSS program was able to sufficiently validate important sensor data records from the
       Advanced Technology Microwave Sounder (ATMS), which provides temperature and
       moisture data that significantly contribute to numerical weather prediction. As of May 22,
       2012, or 7 months after Suomi NPP’s launch, ATMS data records were being assimilated
       into NOAA’s global forecast system, which is the foundation for all medium-range (3–7 day)
       forecasts in the United States.

       In March 2012, NASA’s NPP program formally accepted the Suomi NPP satellite from its
       contractor, Ball Aerospace. Then, after a successful operations transfer review, the JPSS
       program accepted responsibility for interim Suomi NPP satellite operations. Approximately
       15 months postlaunch, Suomi NPP satellite operations will be turned over to NOAA’s
       Office of Satellite and Product Operations. While many of the difficulties the program has
       faced are typical for a new satellite system, continued follow-through on actions in response
       to our prior recommendations is needed.

       A.		 Degradation of Visible/Infrared Imager Radiometer Suite sensor delayed Suomi NPP
            commissioning

       Approximately 1 month after Suomi NPP’s launch, NASA’s project team discovered that
       VIIRS’s sensitivity in certain spectral bands21 was degrading. As an investigation was
       launched, measures were taken to isolate VIIRS and prevent other Suomi NPP instruments
       from being damaged, essentially halting planned commissioning activities. The investigation
       ultimately delayed Suomi NPP commissioning 6 weeks and, in particular, use of the Cross-
       track Infrared Sounder (CrIS).

       The root cause was determined to be tungsten oxide contamination on VIIRS’ mirrors
       stemming from a deviation in the manufacturing process. The degradation correlated with
       solar exposure and affected a limited number of spectral bands detected by VIIRS. While
       continuing, the rate of degradation is predicted to level off, and the quality of the sensor’s
       data is currently expected to exceed specifications even after 7 years of operation.

       Suomi NPP’s VIIRS was built under the NPOESS program, which, as we discussed in our
       September 2011 report, was managed by a contractor with limited government oversight.
       Nevertheless, it is concerning that a sensor with optics such as VIIRS’ was not subjected to
       testing sufficient to have identified the contamination. NASA has taken steps to ensure such
       testing will be done on the next VIIRS sensors (to fly on JPSS-1 and JPSS-2), better
       simulating space environment exposures that are most significant to a very important
       sensor.




21
     Finite segments of wavelengths in the electromagnetic spectrum.


FINAL REPORT NO. OIG-12-038-A                                                                           15
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

     B.		 Deferred ground system work, sensor data record discrepancies, and a planned modernization
          of NCEP’s supercomputer system will result in unforeseen delay in operational use of Suomi
          NPP data

     The Cross-track Infrared Sounder (CrIS) will provide key data—atmospheric temperature,
     moisture, and pressure—that complement ATMS data and will be used in numerical
     weather prediction. As a result of the VIIRS degradation described above, however, the
     flow of CrIS data from the satellite to the ground system was delayed approximately 6
     weeks until mid-January 2012. Additional ground system updates delayed full analysis of CrIS
     sensor data records another week or more. At this point, the program discovered errors in
     the data records that required additional ground system software changes.

     Some of the errors with CrIS data records were the result of ground system work deferred
     until after Suomi NPP’s launch, which we cautioned in our September 2011 report could
     delay operational use of data. An error discovered after initial CrIS data were reviewed—
     incorrect geo-location codes 22—prevented the data from being tested by the National
     Centers for Environmental Prediction (NCEP) for use in its numerical weather prediction
     models. Therefore, CrIS data could not be assimilated into NCEP’s operational forecast
     system during its system changes in May 2012. Further, due to planned upgrades to NCEP’s
     supercomputers in 2012–2013 and a subsequent system freeze during the 2013 hurricane
     season, CrIS data cannot be assimilated for operational forecasting until the next available
     window in December 2013. These same factors apply to other Suomi NPP data records
     (from VIIRS and the Ozone Mapping and Profiler Suite [OMPS]) that will be used for
     operational weather forecasting.

     NCEP officials told us there also may have been some misunderstanding with the JPSS
     program regarding NCEP’s need for CrIS data as soon as possible. According to the JPSS
     ground segment project manager, the programmatic interface with NCEP was through
     NOAA’s NPOESS Data Exploitation System, which further processes ground system data
     for NOAA users. While the circumstances described above were likely unavoidable,
     together they illustrate a need expressed in a recommendation in the September 2011
     report: NOAA’s Deputy Under Secretary for Operations should coordinate efforts from
     across line offices to minimize the degradation of weather and climate forecasting.

     C.		 Ground system risks realized early in life of Suomi NPP must be mitigated for operational use of
          data

     As discussed in our September 2011 report, the ground system supporting Suomi NPP
     consisted of a single receiving station through which to downlink science data collected by
     the satellite’s instruments. While the ground system’s design may have been appropriate for
     Suomi NPP’s conception as a research mission, we warned that without a secondary,
     geographically distinct receiving station, disruptions to ground equipment could result in
     loss or delay of data, which will soon be needed for operational forecasting.

22
  The latitude and longitude of environmental conditions observed by the sensor and from which the data were
derived.


FINAL REPORT NO. OIG-12-038-A                                                                                  16
U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL

    After Suomi NPP’s launch, undersea cables connecting the receiving station in Svalbard,
    Norway, with the ground system’s data processing components in the United States were
    cut or otherwise disrupted. Measures were taken to retain data at the receiving station, but
    data processing by the ground system was significantly delayed and would not have been
    useful for operational weather forecasting had it been needed. This spurred the program to
    stand up an emergency secondary receiving station in Fairbanks, Alaska, with spare
    equipment, repurposed for the emergency situation. The secondary downlink station does
    not provide full backup capability, and more work will be required to add sufficiently robust
    capability for operational needs.

    Further, the program plans a stopgap measure for implementing a backup mission
    management center for Suomi NPP, also a recommendation in our September report.
    Longer term, the program plans to build a robust alternate ground system that will provide
    backup mission management and data processing capabilities in time to support JPSS-1.

    D.		 Calibration and validation activities needed to operationalize data present management
         challenges

    As reported in September 2011, the JPSS program has yet to reach agreement with
    NESDIS’s Center for Satellite Applications and Research (STAR) on the management of
    science algorithms and calibration and validation activities needed to operationalize and
    maintain JPSS data products. While STAR scientists are leading program teams responsible
    for calibration and validation of data records, STAR staff report to their own management
    and support JPSS program staff, who manage the overall effort. STAR managers have stated
    they do not have sufficient authority to determine and manage their JPSS-related budget.

    NOAA intended to finalize, by March 2012, a plan to transition management of these
    activities to STAR, which was in response to our recommendation. A final plan has not
    materialized, however, and both STAR and JPSS staff indicate that there is disagreement
    over the timeline for the transition. STAR staff proposed taking over management of
    calibration and validation activities once JPSS turns over operation of the Suomi NPP
    satellite to NOAA’s Office of Satellite Products and Operations, planned for 15 months
    postlaunch (approximately February 2013). JPSS staff believe that the transition will be more
    appropriate once data records and underlying algorithms have reached a more stable phase
    sometime after launch of JPSS-1. In the meantime, work needed to complete calibration and
    validation of data records was getting done. More recently, however, the program reported
    a management dispute with respect to STAR participation in the development of ground
    system requirements and concept of operations needed to operationalize Suomi NPP and
    prepare for JPSS-1, potentially delaying the ground project’s system requirements and
    definition review. The program recently told us that it was hopeful it would reach an
    agreement with STAR without needing to engage NESDIS management to clarify roles and
    responsibilities.

    In response to our September 2011 audit report, NOAA planned to identify resources
    needed to complete all calibration and validation work within 18 months. JPSS staff,
    however, told us that 24 months was the program’s nominal schedule for completing such


FINAL REPORT NO. OIG-12-038-A                                                                     17
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

    activities. The program’s schedule indicated that 22 products will take from 27 to 48
    months postlaunch to reach a stage where their accuracy has been established in a
    systematic and statistically robust way, representing global conditions. Higher priority data
    records—those needed for weather forecasting—will be validated and operationalized
    sooner.

    In addition to prioritizing its schedule of activities, the program has addressed resource
    constraints by canceling NOAA-funded aircraft flights that would have collected
    atmospheric data for comparisons with Suomi NPP data. STAR scientists, who did not know
    of the decision until we asked them, considered the aircraft flights an essential calibration
    and validation activity. Finally, the program continues to negotiate to retain key Northrop
    Grumman expertise that would be lost with the termination of a remaining NPOESS
    contract supporting calibration and validation.

 V.     Assessment of Expected Data Gap Between Suomi NPP and JPSS-1

    Over the course of the program to date, we have analyzed Suomi NPP and JPSS schedules
    to assess expected gaps in weather forecast data, a subset of all the environmental data to
    be collected by these satellites’ instruments. In June 2011, we estimated an 18–30-month
    gap between Suomi NPP and JPSS-1, based on the status of the satellites’ development at
    that time. In our September 2011 report, we estimated that the expected gap in useful
    satellite data had improved to between 9 and 21 months, in part due to an improved
    funding outlook for JPSS. Currently, we project a 10–16-month gap between Suomi NPP
    and JPSS-1 operational data (see figure 5).

    In our current analysis, we assume a JPSS-1 launch in March 2017, which is 1 month later
    than what we assumed in our September 2011 assessment. The program is currently
    projecting a JPSS-1 launch in the second quarter of fiscal year 2017, a one-quarter slip from
    its previous estimate. We maintain a conservative outlook by assuming the launch will occur
    near the end of the quarter.

    Our current data gap projection also assumes that 6 to 12 months of postlaunch activity will
    be necessary for JPSS-1 data to be sufficiently calibrated and validated for operational use.
    Given that Suomi NPP’s design life is 5 years, it is possible that the program will not have
    Suomi NPP data to compare with JPSS-1 measurements. In that case, the program would
    need to use other space-borne assets, including any legacy NOAA polar satellites still
    operating (an increasingly remote possibility) and those of other agencies and international
    partners, as well as in situ data. This scenario would tend to extend the time needed to
    calibrate and validate JPSS-1data.




FINAL REPORT NO. OIG-12-038-A                                                                       18
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

    Figure 5. Potential Continuity Gaps for Polar-Satellite Operational Forecast Data




    Source: OIG analysis of program data, as of June 6, 2012

    It is also possible that Suomi NPP will continue to operate beyond its design life. NASA’s
    launch of Suomi NPP proved to be very precise, with the result that fuel intended to propel
    the satellite into the proper orbit was conserved. The saved propellant may be used for an
    additional 7 years (a total of 14 years) of orbit maintenance maneuvers and prolong the
    usefulness of Suomi NPP—although the life of its command, control, and communications
    systems and, even more so, its instruments will likely be limiting factors. Further, Suomi
    NPP calibration and validation activities have had some early successes, particularly with the
    assimilation of ATMS data records into operational weather forecasting models. Given that
    JPSS-1 will fly the same instruments, this success favors a shorter postlaunch time period
    before JPSS-1 data may be used operationally.

    In September 2011, we reported on activities within NOAA to use other sources of data to
    mitigate gaps and recommended that NOAA coordinate efforts from across its line offices
    to minimize the degradation of weather and climate forecasting. In response, NOAA
    indicated that it was looking at both foreign and commercial sources of data. However,
    NOAA has not yet fully developed a strategy for evaluating and selecting foreign data
    sources.




FINAL REPORT NO. OIG-12-038-A                                                                   19
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


Recommendations

    To guide JPSS toward successful program implementation, we recommend that the NOAA
    Deputy Under Secretary for Operations ensure that

        1.		 Sufficient resources and attention are given to finalizing JPSS high-level requirements
             and completing system definition.

        2.		 The program’s acquisition strategy for JPSS-3 and JPSS-4 is determined, documented,
             and shared with the Department, OMB, and Congress.

        3.		 NESDIS and the JPSS program quantify cost savings as part of its ongoing effort to
             determine the most efficient approach to processing environmental data records.

        4.		 NESDIS determines whether an enterprise approach to developing and maintaining
             data products from its environmental satellites could achieve economies of scale and
             complement other efforts to modernize its system architecture.

        5.		 Sufficient resources and attention are given to permanently filling key management
             positions.

    To ensure that JPSS and other NOAA major system acquisition program cost estimates are
    reliable, the NOAA Deputy Under Secretary for Operations should

        6.		 Direct the development of a policy that requires major system acquisition programs
             to adhere to cost-estimating best practices.

        7.		 In the interim, ensure that cost-estimating best practices are more closely adhered
             to in the JPSS program and other major system acquisitions.

    To manage risks inherent with JPSS’ anticipated (flat) funding, the NOAA Deputy Under
    Secretary for Operations should ensure that

        8.		 An independent cost estimate adequately tests the viability of the program’s funding
             profile.

        9.		 Stakeholders are sufficiently informed of unplanned schedule and capabilities
             tradeoffs, if needed, to meet surges in effort necessary for launches.

    To use Suomi NPP data in operational forecasting, NOAA should continue actions taken in
    response to our September 2011 audit recommendations.

    To prepare for an expected gap in polar satellite data, NOAA should continue actions taken
    in response to our September 2011 audit recommendations.




FINAL REPORT NO. OIG-12-038-A                                                                      20
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
In responding to our draft report, NOAA concurred with all of our recommendations. It also
suggested factual and technical changes and made editorial comments in regard to certain
aspects of our findings. See appendix B for the complete response.

We have made minor changes to the report where program documentation substantiated
NOAA’s recommended changes and the revisions provided a better understanding of the
issues. Beyond those changes, we offer the following comments on NOAA’s specific responses.

NOAA asserted that the program’s prolonged formulation activities were attributable to
“inadequate funding in FY 2011 and FY 2012” rather than the issues with governance structure
and staffing we describe in the report. However, our discussion of these issues both in this and
prior reports does acknowledge the funding challenges the program has experienced in FY
2010 and FY 2011. (In FY 2012, Congress funded JPSS with $924 million compared with its
$1.07 billion budget request.)

NOAA suggested that part of our discussion of NOAA’s cost-estimating process in finding II
“misrepresents the confidence in the cost estimate.” In particular, the agency objected to our
findings about the differences in ground rules and assumptions between the NASA and NOAA
cost estimates. Our analysis is supported by both program documentation and information we
obtained from separate interviews of NOAA and NASA staff. Further, as described in this
finding, the analysis of NOAA’s cost-estimating process was necessarily limited to its activities
in 2011. We told NOAA officials at our audit exit conference that it was possible some of the
issues we identified may become less substantial as the cost estimate was refined in 2012 and
going forward.

NOAA indicated that since we issued our draft report, a JPSS acquisition strategy meeting with
NOAA and NASA leadership was held and NOAA plans to communicate with the
Administration and Congress on such matters and use the information for future budget
requests. We look forward to learning more about the strategy in our continuing oversight
work.

Finally, NOAA indicated that in our discussion of the management of calibration and validation
activities (finding IV, part D), our statements concerning the transition of responsibility to STAR
do not reflect NESDIS management’s view. Elsewhere in the response, NOAA indicates that
this issue has no impact on the program. We would suggest that NESDIS management has a
different view from JPSS project managers and that impact, both to JPSS and STAR, is described
in the report.




FINAL REPORT NO. OIG-12-038-A                                                                    21
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
This audit was initiated in November 2011 as part of our FY 2012 work plan and in conjunction
with our Top Management Challenges facing the Department of Commerce. Our objectives
were the following:

    1.		 Assess the adequacy of JPSS formulation activities, including development of 

         requirements, schedule, and cost baselines.



    2.		 Monitor the program's efforts to maintain continuity of polar satellite data from the
         afternoon orbit, specifically activities supporting Suomi NPP on-orbit operations and the
         development of JPSS-l.

To accomplish our first objective, we interviewed NOAA and NASA program managers and
staff involved in program formulation, including contractors supporting such efforts. We also
interviewed the independent cost estimate contractor and staff in NOAA’s Office of the Chief
Financial Officer, who oversaw the development of the independent cost estimate for JPSS and
had knowledge pertaining to NOAA’s budget formulation. In addition, we obtained information
from the Department’s Office of Budget. We examined program activities and documentation
supporting baseline development and compared them with the following standards and best
practices:

    •		 NASA Space Flight Program and Project Management Requirements (NPR 7120.5D,
        including NASA Interim Directive 7120-97), March 2007

    •		 GAO Cost Estimating and Assessment Guide, Best Practices for Developing and 

        Managing Capital Program Costs (GAO-09-3SP), March 2009



    •		 Department of Defense Standard: Work Breakdown Structures for Defense Materiel
        Items (MIL-STD-881C), October 2011

To accomplish our second objective, we interviewed JPSS program and project level staff from
both NOAA and NASA. Our senior satellite analyst attended the American Meteorological
Society Conference in January 2012, which included presentations from and interactions with
JPSS program staff and scientists. We interviewed officials and staff from NOAA’s Center for
Satellite Applications and Research and the National Centers for Environmental Prediction. We
reviewed and analyzed weekly and monthly program and project status reports and other
documentation. Our fieldwork also included attending multiple JPSS program management
reviews:

    •		 monthly NOAA Program Management Councils

    •		 monthly flight and ground system contractors’ program management reviews



FINAL REPORT NO. OIG-12-038-A                                                                   22
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

    •   NPP satellite acceptance review, March 6, 2012

    •   NPP operations transfer review, March 7, 2012

    •   JPSS program’s system requirements review, May 22–24, 2012

    •   JPSS Key Decision Point 0 review, July 20, 2012

We reviewed internal controls significant within the context of our audit objectives:
NOAA/NASA satellite acquisition program management policies and practices and program
schedules (discussed in findings I and II) and program reviews (discussed in finding IV).

Although we could not independently verify the reliability of all the information we collected,
we compared it with other available supporting documents to determine data consistency and
reasonableness. From these efforts, we believe the information we obtained is sufficiently
reliable for this report.

We performed our work in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

We conducted our review from November 2011 through August 2012 under the authority of
the Inspector General Act of 1978, as amended, and Department Organizational Order 10-13.
We performed fieldwork at the following locations:

             •   NOAA headquarters in Silver Spring, Maryland

             •   JPSS program office in Lanham, Maryland

             •   Raytheon’s facility in Aurora, Colorado

             •   Ball Aerospace Technology Corporation’s facility in Boulder, Colorado

             •   NCEP headquarters in Camp Springs, Maryland

             •   the AMS Conference in New Orleans, Louisiana




FINAL REPORT NO. OIG-12-038-A                                                                     23
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response

                                                        UNITED SlATES DEPARTMENT OF COMMERCE
                                                        The Coputy Under Sttcrutary for
                                                        Operatio ns
                                                        Washington , O .C. 20230




    MEMORANDUM FOR:               Allen Crawley
                                  Assistant Inspector General fo r Systems Acquisition and IT Security

    FROM:                         David W. Titley, PhD   / AI(         J/z_KJ
                                  NOAA Deputy Under Secretary for Operations

    SUBJECT:                     Audit ofthe Joint Polar Satellite System: Continuing
                                 Progress in &tablishing Capabilities, Schedule~~ and
                                 Costs Is Needed to Mitigate Data Gaps
                                 Draft OIG Audit Report


    Thank you for the opportunity to comment on the Office of the Inspector General' s draft audit
    report evaluating the Joint Polar Satellite System program. Our specific comments on the
    report' s findings and recommendations are auached.

    Attachment




FINAL REPORT NO. OIG-12-038-A                                                                            24
U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL



                                      Department of Commerce
                        National Oceanic and Atmospheric Administration
                           Comments on the Draft OIG Report Entitled,
          "Audit of the Joint Pola1' Satt>llite System: Continuing Progt·ess in Establishing
              Capabilities, Schedules, and Costs is Needed to l\litigate Data Gaps"
                                   (Draft Report August 29, 2012)

   Gt>neral CommPnts
   The Depat1ment of Commerce's National Oceanic and Atmospheric Administration (NOAA)
   appreciates the opporttuuty to review the Office of Inspector General's (OIG) draft report
   evaluating: the Joint Polar Satellite System (JPSS) program. NOAA respectfully requests that the
   OIG acknO\vledg:e that JPSS exists in multiple stages of development. The oYerall system is still
   in its formulation phase, consistent with space acquisition practices. Decisions required for near­
   tenumissions have been made. and JPSS is executing: to these plans. Planning: for longer-tenu
   decisions (e.g .. related to JPSS-1/2 follo\Y-on missions) is undenYay. and those strategies and
   decisions will be made when needed.

   NOAA believes the draft report highlights important issues. The discussion and negotiations are
   nonnal for a program as complex as JPSS . Clarifications to items that are incomplete or
   misstated are included.

   NOAA Rt>sponse to Recommendations

   To guide JPSS toward successful program implementation, we recommend that the NOAA
   Deputy Under Secretary for Operations ensure that:

   Recommendation 1: "Sufficient resources and attention are given to ftnalizing JPSS high­
   level requirements and completing: system de:tinition ...

   NOAA Response: We concur . The original JPSS Level 1 Requirements Document (LlRD)
   was signed in 2010 and the NOAA JPSS Office has been working to update the LlRD since
   Januru.y 2012 . This update incmporates all the kno\vn changes to requirements and v>ill serve as
   the system baseline as the Program moves to the System Defmition Revie\v. The draft document
   is cunently in review and approval by the Deputy Under Secretary for Operations is expected in
   November 2012 .

   Recommendation 2: "The program's acquisition strategy for JPSS-3 and JPSS-4 is
   detemuned. documented. and shared \Yith the Depatiment. OMB and Congress.''

   NOAA Response: \Ve concm. huplementation of this recommendation is underway. A joint
   Depa1tment/NOAA and ASA Acquisition Strategy Meeting was held on August 29. 2012. and
   NOAA is plruming: to sha1·e the acquisition strategy with OMB and Congress at a date to yet be
   detemuned.


   Recommendation 3: "NESDIS and the JPSS program quantify cost savings as pat1 of its




FINAL REPORT NO. OIG-12-038-A                                                                            25
U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL



 ongoing effort to determine the most efficient approach to processing environmental d ata
 records.''

 NOAA Res ponse: We concur. Since Spring 20 12. JPSS has been conducting an analysis of the
 most efficient way to process the envimnmental data records. As we continue to incorporate
 efficiencies we will quantify cost savings compared to the approach inherited from National
 Polar-orbiting Operationa l EnYironmental Satellite System ~IFOESS). Th is is an ongoing
 process and not a one-time smdy. For examp le. in the 2012 program office estimate. KOAA
 incorporated many cost-savings into the program. The program will continue to revisit this
 ISSUe.


 Recommendation 4: "NESDIS detennines \Vhether an enterprise approach to developing
 and maintaining data products from its env ironmental satellites could achieve economies of scale
 and complement other effotts to modemize its system architecture.''

 NOAA R esponse: We concur. NESDIS is cmTently assessing approaches to def111e ldirect
 Enterprise G-round Services architech1re. NESDIS has set thio;, is as a strategic priority. and io;,
 taking stepo;, to complete this assessment by the second quatter of FY13 .

 Recommendation 5 : '"Sufficient resources and attention are given to pennanently filling
 key management poo;, itions.

 NOAA R esponse: We concur. Implementation of this recommendation is already under way.
 As noted in the report. the NESDIS Deputy Assistant Administrator for Systemo;, position is
 vacant. Tllis position am1om1cement is ctm·ently open on USAJobs. with a close date of October
 1. 2012 . Filling this poo;, ition is a priority for NESDIS and NOA.t\. N ESDIS is also looking at
 ways to strengthen its cotporate knowledge with the addition of t\vo seruor managers with
 expeltise in Syo;tems Engin eering and Grmmd Systems. Witllin the NOAA JPSS Office. the
 Systems Engineer position and at least t\vo additional systems engineering positiono;, are expected
 to be filled by the end of the calendar year. The Budget Officer o;, election hao;, been m ade, and the
 Budget Officer will start in the NOAA JPSS Office in October. These additional staff will allow
 JPSS adequately plan. manage. and execute the mission.

 To ensure that JPSS and other NOAA major system acquisition program cost estimates are
 reliable. the NOAA Deputy Under Secretary for Operations should:

 Recommendation 6: '"Direct the deYelopment of a policy that requires major system
 acquisition programs to adhere to cost-eo;,timating best practiceo;,.''

 N OAA Response: We concur. Th e Government Accotmtability Office (GAO) recently issued a
 rep01t on cost estimating (GA0-1 2-629) and in NOAA'o;, reo;ponse. w e indicated that NOAA
 would benefit fi:om Commerce-lev el policies that ensure that NOAA 's procedm·es are consistent
 with other Commerce bureaus' cost estimations. Those efforts are ongoing and NOAA expects
 to comply once the Department of Commerce has io;,sued its guidelines and policy govenling cost
 estimating.




FINAL REPORT NO. OIG-12-038-A                                                                              26
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL



  Recommendation 7: "In the interim. ensme that cost-estimating best practices are more
  closely adhered to in the JPSS program and other maj or system acquisitions:'

  NOAA Response: l)le concur. JPSS will continue to use cost-estimating best practices.
  perform lessons leamed before the next cost estimating update. and ensure om cost estimating
  methods are independently reYiewed to verify adherence. For example. the JPSS kicked off the
  development of an update to the Cost Analysis Requirements Docmnents (CARD) in late .Ttme
  20 12. and will be completed and appropriately vetted by late Fall 2012. The requirements in the
  update \vill sen·e as input for the program estimate and independent cost estimate (ICE) planned
  for late 2012 I early 2013 . The ICE will be led by the Department of Conunerce Cost Analysis
  Division with suppott from the US Air Force Cost Analysis Agency Space Division. T he
  updated CARD will reflect the Final Level 1 Requirements Document. as w ell as improved
  defmition on the ground system as presented during the August Ground System requirements
  and Definition Review (GSRR I GSDR) .

  To manage risks inherent with JPSS' an ticipated (flat) funding. the NOAA Deputy Under
  Secretary for Operations should ensme that:

  Recommendation 8: "An independent cost estimate adequately tests the viability of
  the pro gram 's fimding profile.··

  NOAA Respome: We concur. An update to the FY 201 1 independent cost estimate (ICE) is
  expected to be completed by March 20 13.

  Recommendation 9: " Stakeholders are sufficiently informed of unplanned schedule and
  capabilities tradeoffs. if needed. to meet surges in ef£011 necessary for launches.''

  NOAA. Response: \Ve concur. The JPSS Office hosts several meetings to ensure that
  stakeholders are up-to-date on the stahts of the program and aware of any changes to JPSS
  capabilities or timelines. First. the Low-Ea11h Orbiting Requirements "Working Group
  (LORWG) meets regularly and is the focal point for the Low-Earth Orbiting Satellite operational
  requirements. The LORWG is presently meeting evety 2-3 \Veeks. Once the Levell
  Requirements Document is completed. the LORWG will meet less often since the meeting
  schedule is lifecycle-stage-dependent. Among their duties is to prepa1·e impact statements
  responding to Low-Ea1th Orbiting satellite technical program changes that could impact
  customer satisfaction. The JPSS Coordination Group meets at least every two months to
  coordinate on the development. operation and sustairnuent of the JPSS (and Suomi NPP) Ground
  System. In addition. the JPSS Gt·otmd DiYision holds quarterly Customer Fonuns with
  teleconferences held in benveen these face -to-face meetings to discuss the program status and
  upcoming events with those '\Vho download and process the JPSS and NPP data . Finally
  tmplanned schedule and capabilities trades are rep011ed monthly at Govemance Council
  meetings. NOAA intends to continue these meetings tlu·ough the acquisition of the JPSS .

  Recommendation 10: "To use Suomi NPP data in operational forecasting. NOAA should
  continue actions taken in response to om September 2011 audit reconunendations.''




FINAL REPORT NO. OIG-12-038-A                                                                    27
U.S. DEPARTMENT OF COMMERCE                                    OFFICE OF INSPECTOR GENERAL 



 NOAA Response: vVe concur. NOAA is ah·eady responding and tracking responses to the
 September 2011 OIG repott .

 Recommendation 11: '·To prepare for an expected gap in pola1· satellite data. OAA should
 continue actions taken in response to our September 2011 audit recommendations .''

 NOAA Response: W e concur. NOAA is ah·eady responding and tracking responses to the
 September 2011 OIG repott .




FINAL REPORT NO. OIG-12-038-A                                                           28
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL





                                      De-partme-nt of Comme-rce
                        ~ational Oceanic and Atmosphe-ric Administration
                           Comments on the Draft OIG Report Entitled,
         " Audit of the Joint Polat' Satellite System: Continuing Progress in Establishing
              Capabilities, Scheduleo;, and Coo;to; is :\leeded to Mitigate Data Gaps"
                                  (Draft Re-port August 29~ 2012)


 Recommended Change<; for Factual/Technical Information

 Page 3, first paragraph, second sentence:
 The date noted for JPSS-2 launch. 2022. is a launch readiness date and not a launch date.
 Recommend inset1i.ng '·readiness" after '· ... slated for launch."'

 Page 3, third paragraph, third sentence:
 The prolonged fonuulation activities were mainly a result of inadequate funding in FY 2011 and
 FY 20 12 and not because of a delayed governance structure and inadequate staffmg. We
 recommend that more insight be provided as to why the OIG has charactetized the delays in this
 way or delete the sentence.

 Page 3, fowth paragraph, third sentence:
 JPSS follows the best practices and policies of cost estimating: howenr. the JPSS is not a typical
 system in hvo substantiYe \lvays : a) it is a restmcture of the NPOESS program. which reqnit·ed
 JPSS to in11e1it the elements of that program. and b) the JPSS is comprised of at least 2 different
 kinds of spacecraft with different instnunent manifests. It is not like a typical NASA program
 that generally builds a one-of-a-kind satellite. and it is not like ptior NOAA satellite programs
 where multiple satellites with the same instruments were acquired.
 Page 3, fourth paragraph:
 There is no evidence for the assertion that '·efforts to operationalize Suomi NPP data have had
 mixed results thus far .., and there is a factual en·or in the sentence that states ··other data records
 \vill not be aYailable for operational use until December 2013 ."' The operational use of ATMS
 data by the NWS was on a schedule that was faster than any other assimilation of new satellite
 data in the past. and the calibration/validation of all of the data products is progressing well . In
 fact. all of the data products are available now in ··beta·· phase. and some are being used
 operationally now. Calibrati01 validation of the products \Yill continue through the life of the
 program. and there are 40 envi1·oruuental data records created from Suomi NPP data.
 Recommend clarification be added to describe ,,·hat '·mixed results"' is referring to and
 clarification added to describe the status of the data products.

 Page 5, (irst paragraph, fourth sentence:
 Consistent with N PR 7120.5E. NASA Space Flight Program and Project Management
 Requirements. program baseline are established at Key Decision Point I. demonstrating
 sufficiency to begin implementation with established content. cost and schedule cOimnitment.
 The aliO\vable duration or period for the fornmlation phase varies across programs to
 accommodate feasibility assessments. risk assessments. buildup of teams/ organizations.
 development of operations concept. establishment of high level requirements and success
 criteria. approval of plans. budgets. schedules. coordination and implementation of programs



FINAL REPORT NO. OIG-12-038-A                                                                           29
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL



 controls. and other petf onn ance criteria. Recommend adding ··which is consistent with NPR
 7120.5E. NASA Space Flight Program and Project Management Requirements'' after
 " ... cunentlyplanned for July 2013 :'

 Page 5, Table 1:
 Recomm end adding Suomi NPP to the row labeled. '·satellites'' in all three colunms became the
 cost includes Suomi NPP . Also. recommend adding a new row labeled. ··instnun ents'' to
 indicate that the instrument list has not changed since the 2009 estimate. but only how they
 \Yould be acconm10clated has changed. Page 6, fo urth paragraph, first sentence:
 The Ground System Block 1.5 review was delayed. but the Ground System Block 2.0 reYiew was
 accelerated: so the overall result was a faster. more efficient schedule. Recommend clarific ation .

 Page 10, first paragraph, fifth sentence:
 Reconun end adding clarification for ' ·potential for requirements changes ..,

 Page 12, second paragraph:
 This paragraph contains only a pot1ion of the cost-estimating process. and thus misrepresents the
 confidence in the cost estimate. The fu·st three sentences of the paragraph are patt of the
 estimating process and represent no issues. and the last two sentences are inaccurate in that.
 \Yhile program content may have evolved over time . there \Vas no misconummication bet\Yeen
 d1e agencies. For the 2012 POE . JPSS m ed NASA Planning. Programming. Budgeting. and
 Execution (PPBE) 14. which only had JPSS-2 and JPSS-3. Recomm end deletion .

 Page 13, second paragraph, second sentence:
 Recommend deletion of ''contnuy to proposals ..,

 Page 13. third paragraph. first sentence:
 Reconm1end providing clarification of ''the potential to cost significantly more than what is
 ctmently budgeted.''

 Pasze 17. fifth paragraph:
 This is an example of a description of an issue that has had no impact on the overall JPSS. and is
 patt of a complex satellite acquisition. Reconunend rewriting to clarify that discussions and
 negotiations between NESDIS offices has had no impact on the overall calibration/validation
 activities being completed.

 Editorial Com ments

 Page 1, first paragraph o(introduction, a{ter last sentence:
 Add additional sentence. TI1e DOD is cunently assessing requirements for their follow-on to the
 Defense M eteorological Satellite Program .

 Page 1, Figure 1:
 To illustrate the system and intetfaces referenced throughout the presentation. recommend
 inserting the full JPSS Content as depicted below. The figure as shown in the cun·ent clt·aft OIG
 repon does not include the Tracking and Data Relay Satellite System (TDRSS) and \Vhite Sands
 link. as well as the appropriate references to Calibration/V alidation and Algoritlun Suppoti. The
 OIG simplified this graphic "·ithout providing rationale for the omitted elements.




FINAL REPORT NO. OIG-12-038-A                                                                           30
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL






  Page 2, second paragraph, fourth sentence:
  The JPSS Program currently has projects that are in all Life Cycle Phases. Reconunend adding
  "and operations., following "both fonuulation and implementation."

  Page 2, fourth paragraph, first sentence:
  Suomi NPP provide5> continuity for both NASA Earth Observing System (EOS) and NOAA
  Polar-orbiting Operational Environmental Satellite (POES). both of \\"hose data are used
  operationally by the NOAA National Weather Service. Add '·and NOAA 's Polar-orbiting
  Operational Environmental Satellites (POES)'' after '·. .. NASA's Eatih Observation System."'
  Also. recommend 5>ubstitution of''observing" for ''observation'' in the definition ofNASA EOS .

  Page 2, fourth paragraph, second sentence:
  Add "and NASA EOS'' after ... .. polar-orbiting operational enviromn ental satellite"; ..,

 Page 3, third paragraph and Page 7, third paragraph, second sentence:
 Since the completion of the OIG report_ JPSS has pati icipated in an Acquisition Strategy
 Meeting with senior NOAA and NASA leadership. NO A.A. intends to conununicate its strategy
 for maintaining the continuity of polar-orbiting operational satellite ob5>ervations to the
 Administration and Congress. at a date to yet be determined. as well as use that infonuation for
 fumre budget requests.


 Page 7, first paragraph :
 Need to reword iirst full sentence to ··one such decision pettains to the ground system(s) that the




FINAL REPORT NO. OIG-12-038-A                                                                          31
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




011200000134




FINAL REPORT NO. OIG-12-038-A                           32
